                                                        IG-03-003




AUDIT
                           NASA CONTRACTS FOR PROFESSIONAL,
REPORT                     ADMINISTRATIVE, AND MANAGEMENT
                                   SUPPORT SERVICES

                                     October 16, 2002




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

AS&M           Analytical Services and Materials, Inc.
CO             Contracting Officer
CPSR           Contractor Purchasing System Review
DOD            Department of Defense
FAR            Federal Acquisition Regulation
FY             Fiscal Year
OFPP           Office of Federal Procurement Policy
PBC            Performance-Based Contracts
                                   October 16, 2002

W


TO:            R/Associate Administrator for Office of Aerospace Technology
               D/Director, Ames Research Center
               X/Director, Dryden Flight Research Center
               0100/Director, John H. Glenn Research Center at Lewis Field

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Audit of NASA Contracts for Professional,
               Administrative, and Management Support Services
               Assignment Number A-01-046-00
               Report Number IG-03-003

The subject final report is provided for your information and use. Please refer to the
Executive Summary for the overall audit results. Our evaluation of your response has
been incorporated into the body of the report. We consider management’s proposed or
completed, corrective actions responsive for all recommendations. The corrective actions
completed for recommendations 1, 2, 3, and 6 are sufficient to close the
recommendations for reporting purposes. Recommendations 4, 5, and 7 will remain open
for reporting purposes until corrective actions are complete. Please notify us when
actions have been completed on the recommendations, including the extent of testing
performed to ensure corrective actions are effective. The final report distribution is in
Appendix G.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Mr. Lorne A. Dear, Program Director, Procurement
Audits, at (818) 354-5634; Mr. Patrick A. Iler, Program Manager, at (216) 433-5408; or
Mr. Michael P. Bruns, Auditor-in-Charge, at (216) 433-8918.



[original signed by]
Alan J. Lamoreaux

Enclosure
                                                    2

cc:
HQ/AI/Associate Deputy Administrator
HQ/B/Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/JM/Director, Management Assessment Division
JSC/AA/Director, Johnson Space Center
LaRC/106/Acting Director, Langley Research Center
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 3

     Finding A. Competition for Subcontract Awards, 3

     Finding B. Fixed-Price Contracting, 11

Appendix A - Objectives, Scope, and Methodology, 17

Appendix B – Summary of Prior Audits and Other Reviews, 19

Appendix C – Contracts Reviewed, 21

Appendix D – Subcontract Consent Checklist, 22

Appendix E – Noncompetitive Subcontracts, 23

Appendix F – Management’s Response, 24

Appendix G – Report Distribution, 27
                            NASA Office of Inspector General

IG-03-003                                                                            October 16, 2002
 A-01-046-00

                            NASA Contracts for Professional,
                            Administrative, and Management
                                   Support Services


                                      Executive Summary

Background. Over the last decade, Federal agencies, including NASA, have
substantially increased their purchases of services. Since fiscal year (FY) 1999, service
contracts1 in NASA have accounted for more than half of the Agency’s annual contract
awards to business firms. In FY 2001, service contracts accounted for about $5.1 billion
(57 percent) of about $9 billion NASA awarded to business firms. Of the $5.1 billion in
service contracts, professional, administrative, and management support services
(hereinafter referred to as support services) contracts accounted for about $2.7 billion
(53 percent) of the total.

Prior NASA Office of Inspector General and Department of Defense (DOD) Office of
Inspector General audits identified management control weaknesses related to support
services contracts (see Appendix B). These weaknesses included, in part, inadequate
competition and a lack of cost control. In addition, DOD contracting officers (CO’s) did
not use available history from prior contracts to help define costs and reduce risk by
awarding firm-fixed-price contracts.

We performed this audit because of NASA’s significant amount of support services
contracts, which account for more than half of the annual service contract awards, and
management control weaknesses in the support services area that were identified in prior
audits. We reviewed a total of five support services contracts totaling more than $499
million as of March 31, 2002. See Appendix C for a list and description of the five
contracts.




1
  Federal Acquisition Regulation Subpart 37.1, “Service Contracts-General,” defines a service contract as a
contract directly engaging the time and effort of a contractor whose primary purpose is to perform an
identifiable task rather than to furnish an end supply item. Service contracts are used, for example, for
transportation and related services, routine recurring maintenance of real property, and housekeeping and
base services.
Objectives. The overall audit objective was to determine whether NASA properly
awarded and managed its professional, administrative, and management support services
contracts. Specifically, at the four NASA Centers visited,2 we determined whether:

    •   support services contractors obtained full and open competition for subcontract
        awards, and

    •   NASA selected the appropriate contract type for its support services contracts.

Details on our audit scope and methodology are in Appendix A.


Results of Audit. NASA can improve its award and management3 of support services
contracts. For three of the five support services contracts reviewed,4 contractors did not
obtain adequate competition for 13 (59 percent) of 22 subcontracts awarded and did not
adequately justify the lack of competition for the 13 awards. As a result, NASA has
reduced assurance that the selected subcontractors offered fair and reasonable prices for
the 13 subcontracts valued at about $1.3 million (Finding A).

NASA did not maximize opportunities to facilitate the use of fixed-price contracting for
routine administrative services with reasonably definite requirements. As a result, NASA
assumed more risk than necessary because the use of cost-type contracts rather than
fixed-price contracts can minimize the contractor’s incentive to control costs and perform
effectively. In addition, cost-type contracts can be more costly and burdensome for
NASA to administer5 due to more stringent contract reporting and review requirements.




2
  The four NASA Centers visited were the Ames Research Center (Ames), Dryden Flight Research Center
(Dryden), John H. Glenn Research Center (Glenn), and Langley Research Center (Langley).
3
  NASA’s management of support services contracts included CO actions to ensure that contractor
subcontract awards were competed and if not competed, that the noncompetitive subcontract awards were
adequately justified. Federal Acquisition Regulation Part 44, “Subcontracting Policies and Procedures,”
contains policies and procedures for CO’s to follow in reviewing and approving contractor purchasing
systems and providing consent for support services contractors to award subcontracts.
4
  Of the five support services contracts reviewed, three contractors did not adequately justify
noncompetitive procurements. The three contractors were SecTek, Inc. at Ames, Analytical Services and
Materials, Inc. at Dryden, and InDyne, Inc. at Glenn. We also reviewed subcontract awards made by
Northrop Grumman Information Technology, Inc.-Technical Services at Ames and considered the degree
of competition obtained acceptable. In addition, we reviewed subcontract awards made by Swales and
Associates, Inc. at Langley and identified an issue regarding the competitive process for subcontract
awards made to members of independent review teams performing assessments of NASA programs for the
Independent Program Assessment Office. However, the NASA Office of Inspections and Assessments
questioned this process in a prior report (G-01-019), issued September 28, 2001. Therefore, we plan to
compile our data on this issue and provide it to the Inspections and Assessments staff for their use as
appropriate.
5
  Some fixed-price contracts may also have incentive fee and/or award fee provisions, which would require
additional costs to administer.

                                                    ii
For example, a NASA Award Fee Contracting Guide estimated that it would cost
$387,0006 to administer the award fee process over the life of a 5-year contract
(Finding B).


Recommendations. We recommended that NASA CO’s require contractors to develop
and to improve upon company policies for documenting the rationale for noncompetitive
subcontract awards and to follow policies for competing subcontracts and documenting
noncompetitive procurements. We also recommended that CO’s thoroughly document
their analysis and approval of contractor subcontract requests and that contract files
include contractor consent requests. We further recommended that the NASA CO’s
collect sufficient historical workload data for routine administrative services to allow for
expanded use of fixed-price contracting in future awards when data and circumstances
indicate fixed-price contracting is appropriate.


Management’s Response.

Management concurred with all of the recommendations. The complete text of
management’s response is in Appendix F. We consider management’s proposed or
completed corrective actions responsive.




6
 We took the example from NASA’s June 27, 2001, Award Fee Contracting Guide. NASA issued the
Guide to explain the Agency’s award fee policy and to provide examples that could not be addressed in the
Federal Acquisition Regulation.




                                                   iii
Introduction

The award of all contracts including support services contracts requires the CO to select a
contract type that is appropriate to the circumstances of the procurement in question and
to document in the contract file why CO’s chose the particular contract type.7 The
management of support service contracts requires CO’s to adequately oversee the support
services contractors’ subcontracts8 and purchasing systems.

Responsibility for overseeing the subcontract awards and purchasing systems depends on
whether NASA CO’s retain contract administration authority. NASA CO’s have the
option of retaining contract administration authority for NASA contracts or delegating
such authority to the DOD. CO’s oversee support services contractor subcontract awards
by granting contractors “Consent to Subcontract,” which Federal Acquisition Regulation
(FAR) Part 2 defines as the CO’s written consent for the prime contractor to enter into a
particular subcontract. The subcontract awards that support services contractors must
submit to CO’s for consent vary based on whether the contractor has received a
contractor purchasing system review (CPSR)9 and whether the CO has approved the
contractor’s purchasing system based on the CPSR results. The CPSR forms the basis for
the cognizant10 CO to grant, withhold, or withdraw approval of the contractor’s
purchasing system. Without approved purchasing systems, contractors are required to
obtain consent to subcontract for their subcontract awards with limited exceptions.11




7
  Exceptions to the documentation requirement are (1) fixed-price acquisitions made under simplified
acquisition procedures; (2) contracts on a firm-fixed-price basis other than those for major systems or
research and development; and (3) awards on the set-aside portion of sealed bid partial set-asides for small
businesses.
8
  To meet contractual requirements, contractors usually procure goods and services from other sources
through subcontracts. Federal Acquisition Regulation Part 44 defines a subcontract as any contract entered
into by a subcontractor to furnish supplies or services for performance of a prime contract or a subcontract.
The term subcontract includes, but is not limited to, purchase orders and modifications to subcontracts.
9
  FAR Part 44 defines a CPSR as the complete evaluation of a contractor’s purchasing of materials and
services, subcontracting, and subcontract management from development of the requirement through
completion of subcontract purpose. The Defense Contract Management Agency usually performs the
CPSR. However, if NASA retains contract administration authority, NASA personnel have the authority
to perform a CPSR under the guidance in NASA FAR Supplement 1844.302-71.
10
   The cognizant CO is either the NASA CO or the CO within the contract administration office to whom
NASA has delegated contract administration functions such as the review and approval of a contractor’s
purchasing system.
11
   Contractors without approved purchasing systems are required to obtain consent to subcontract for cost-
reimbursement, time-and-materials, labor-hour, or letter contracts, and for unpriced actions under fixed-
price contracts that exceed the simplified acquisition threshold for (1) cost-reimbursement, time-and-
materials, or labor-hour subcontracts; and (2) fixed-price subcontracts that exceed the greater of the
simplified acquisition threshold or 5 percent of the total estimated cost of the contract.
NASA’s June 2001 Award Fee Contracting Guide states that performance-based
contracting12 is NASA’s preferred way of contracting for services. There are two basic
groups of contracts: cost reimbursable and fixed-price. FAR Part 37, “Service
Contracting,” lists a fixed-price performance-based contract (PBC) as the preferred
choice of contract type for service contracts. Both Office of Federal Procurement Policy
(OFPP) and NASA publications discuss the potential for cost savings by using fixed-
price PBC. OFPP statistics show that by converting previously acquired cost-type, non-
PBC services to fixed-price, PBC services, cost savings of about 21 percent are possible.
The NASA Award Fee Contracting Guide estimated that evaluating the award fee for a 6-
month period would cost $38,700. The $38,700 included costs for performance
monitors,13 Performance Evaluation Board members,14 a Fee Determination Official,15 a
recorder,16 and a CO. Accordingly, the cost of determining award fees, semiannually,
over the life of a 5-year contract would be $387,000.




12
   Performance-based contracting is the term NASA used to describe its tailored approach to the Office of
Federal Procurement Policy’s Performance-Based Service Contracting initiative. Performance-based
contracting complements the Government’s overall approach to managing for results and can reduce
unnecessary administration costs.
13
   A performance monitor is responsible for monitoring, evaluating, and assessing contractor performance
in assigned areas.
14
   A Performance Evaluation Board member conducts periodic evaluations of contractor performance and
submits a Performance Evaluation Board Report to the Fee Determination Official covering the Board’s
findings and recommendations for each evaluation period.
15
   A Fee Determination Official’s primary responsibility is to determine the award fee earned and payable
for each evaluation period.
16
   A recorder gathers performance data from monitors.

                                                    2
Findings and Recommendations

Finding A. Competition for Subcontract Awards

Support services contractors did not obtain full and open competition for subcontract
awards and did not adequately justify the lack of competition. Specifically, three NASA
support services contractors17 did not adequately compete and justify noncompetitive
procurements for 13 (59 percent) of 22 subcontracts reviewed. This occurred because
support services contractors did not follow company policy for obtaining competition or
documenting noncompetitive procurements and because contractor policies for
documenting noncompetitive procurements were inadequate. In addition, although
NASA CO’s at Dryden and Glenn granted consent to subcontract, the CO’s FAR-
required analyses of support services contractor requests to award subcontracts were
inadequate. As a result, NASA had reduced assurance that the selected subcontractors
offered a fair and reasonable price for the 13 subcontracts valued at about $1.3 million.


Competition Policies and Procedures

FAR Requirements. FAR Part 6, “Competition Requirements,” directs CO’s to take
specific actions to ensure compliance with Government policy on full and open
competition in Government contract awards. The CO must solicit offers from as many
potential sources as is practical. To identify potential sources, the CO is required to
conduct market research, document the market research, and retain the documentation in
the contract file. A CO can award a noncompetitive procurement when only a single
qualified source is available to perform the contract requirements.18 However, the CO
must prepare a written justification explaining why a noncompetitive procurement is
appropriate. FAR 6.303-2, “Content,” requires, at a minimum, that the justification
include a description of the market research conducted and the results or the stated reason
for not performing market research. In addition, the CO should describe why the
anticipated cost is fair and reasonable, identify the statutory authority permitting other
than full and open competition, and demonstrate that the proposed subcontractor’s unique
capability requires use of the statutory authority cited. The CO should also describe the
planned actions to remove barriers to competition for similar future procurements.
Lastly, depending on the dollar amount of the noncompetitive procurement, the CO must
have the proper authority sign off as the approving official. These requirements apply to
all noncompetitive procurements exceeding the simplified acquisition threshold of
$100,000.


17
   None of the three support services contractors had approved purchasing systems. However, a CO at the
Lyndon B. Johnson Space Center (Johnson) approved InDyne’s purchasing system at Johnson only based
on a review of subcontracts awarded under Johnson’s contract with InDyne, Inc.
18
   FAR 6.302 outlines seven statutory authorities that permit contracting without providing for full and
open competition. The existence of only one responsible source is one of the seven statutory authorities
that allows for contracting without full and open competition.

                                                    3
FAR Part 13, “Simplified Acquisition Procedures,” which applies to acquisitions of
supplies and services costing less than $100,000, requires CO’s to promote competition
to the maximum extent practical. Documentation requirements stated in FAR Part 13 for
noncompetitive procurements are not as stringent as those in FAR Part 6. Nonetheless,
Part 13 requires the CO to explain in the contract file why competition was limited to
only one source and why the price obtained for the noncompetitive procurement was
reasonable. The CO may base the statement of price reasonableness on various factors
such as the extent of market research performed, a comparison with similar items in a
related industry, or a comparison to an independent Government estimate.

To require that contractors competitively award subcontracts to the maximum extent
practical, the CO incorporates FAR clause 52.244-5, “Competition in Subcontracting,”
into contracts. However, the CO was not required to incorporate the contract clause into
the Analytical Services and Materials, Inc. (AS&M), contract we reviewed, which
expired April 30, 2002, because it was a fixed-price contract.19 However, the CO did
incorporate the clause into the follow-on award, also made to AS&M, which began May
1, 2002.

FAR Part 44, “Subcontracting Policies and Procedures,” requires CO’s to incorporate
into contracts the FAR consent-related clauses at 52.244-1, “Subcontracts (Fixed-Price
Contracts) (February 1995)”20 and 52.244-2, “Subcontracts (August 1998).” These
clauses define the contractor’s requirements for seeking consent to subcontract and for
providing information to the NASA CO in advance of placing any subcontract. The
NASA CO’s incorporated these clauses into the support services contracts we reviewed.
Part 44 also requires the CO responsible for the consent to subcontract to review the
contractors’ supporting data and to consider 13 elements (see Appendix D) before
granting consent to subcontract. The FAR emphasizes that CO’s be particularly careful
before granting consent when contractors propose noncompetitive subcontracts or when
contractors do not have approved purchasing systems.

NASA Requirements and Guidance. The NASA FAR Supplement and other NASA
guidance assist CO’s in performing oversight duties. The NASA FAR Supplement Part
1844, “Subcontracting Policies and Procedures,” requires NASA CO’s to retain consent
to subcontract authority unless delegation is approved in writing by the procurement
officer. NASA CO’s retained the authority to grant consent for the three contracts in
question. In addition, NASA FAR Supplement Subpart 1844.302.70 requires that CO’s
be aware of purchasing system approval status for contracts within their cognizance.
None of the three contractors with inadequately supported noncompetitive procurements



19
   The AS&M contract was a fixed-price requirements contract that included fixed labor rates and flexible
hours for delivery orders. In addition, the contract provided for materials, subcontracts, and other direct
costs to be acquired at cost.
20
   FAR Clause 52.244-1 was superseded by FAR Clause 52-244-2 for all types of contracts in August
1998. The AS&M contract included FAR clause 52.244-1, and the InDyne, Inc. and SecTek, Inc. contracts
included FAR clause 52.244-2.

                                                    4
had approved purchasing systems. A NASA Self-Assessment Guide,21 addresses
subcontract consent files and states that the contract file should contain information
showing the consents requested, analysis, and actual consents granted. The Guide also
states that contractors should support consent requests with adequate information and that
evidence of adequate CO analysis should exist. In addition, the Ames site on NASA’s
Virtual Procurement Office,22 accessible through NASA’s Procurement Library Web
Site, contains a copy of a subcontract consent checklist as a tool to assist CO’s in making
consent determinations. However, use of the consent checklist is not mandatory.

Company Policies and Procedures. NASA relies on contractors to incorporate FAR
and NASA FAR Supplement requirements identified in their contracts into company
policies and procedures and to follow those company policies and procedures. However,
FAR requirements do not necessarily bind the prime contractor to utilize the same criteria
as the CO in competing subcontracts and documenting noncompetitive procurements.
Therefore, company policies vary, and it is the responsibility of the CPSR review team to
determine their adequacy. In the absence of a CPSR, NASA CO’s are responsible for
granting contractors consent to subcontract and for being aware of company policies
related to competition and documenting noncompetitive procurements.

CO’s are required by FAR Part 44 to analyze contractor requests to award subcontracts
before granting consent and to be particularly careful when subcontracts are proposed for
award on a non-competitive basis. Therefore, NASA CO’s performing this analysis rely
on contractors to develop competitive policies that reasonably reflect FAR requirements
and to follow those policies. Company policies and procedures for obtaining competition
and justifying noncompetitive procurements differed for the three contractors. All three
contractors had procedures encouraging competition. InDyne, Inc. and SecTek, Inc.
procedures required each contractor to obtain at least three bids, while AS&M procedures
encouraged full and open competition.

However, the three contractors had differing policies for justifying noncompetitive
procurements. InDyne, Inc. policy requires the requisitioner to justify noncompetitive
acquisitions and states that support for noncompetitive acquisitions exceeding $25,000
should fully explain the reasons for the noncompetitive procurement. SecTek, Inc. has
no policy/guidance for documenting noncompetitive procurements, while AS&M policy
mirrors the FAR Part 6 requirements.




21
   The Self-Assessment Guide is intended for use by Center procurement staff in support of annual Center
internal procurement reviews.
22
   NASA’s Virtual Procurement Office is meant to be a one-stop reference tool with templates and samples
for CO use. It may contain sample documents that are unique to each Center.

                                                   5
Full and Open Competition Not Obtained for Subcontracts

For the three contracts reviewed, support services contractors did not adequately compete
13 (59 percent) of 22 sampled subcontracts and did not provide adequate justifications
for the 13 noncompetitive awards. A summary, by contractor, of the sampled
subcontracts follows:

                                  Noncompetitive Subcontracts

                                                               Inadequately Justified
        Subcontracts Reviewed                               Noncompetitive Subcontracts
                                                                   Percent Not
Contractor        Number           Value                Number      Competed           Value
    (a)             (b)             (c)                   (d)         (d/b)             (e)
InDyne, Inc.        11          $1,656,195                 7            64          $ 860,086
AS&M                  6            538,999                 3            50             369,836
SecTek, Inc.        _5              55,849                 3            60              27,722
  Totals            22          $2,251,043                13            59          $1,257,644


InDyne, Inc. Subcontracts Reviewed. Seven of 11 InDyne, Inc. subcontracts we
reviewed were not competed, and the contractor’s support for the 7 noncompetitive
procurements was inadequate. InDyne, Inc. solicited only one source for all seven
subcontracts, although company policy required three source solicitations to promote
competition. Three subcontracts totaling $321,495 were for office design/layout and
specification services. The provided services included interviews, development of
typical workstations, furniture layouts, and furniture budgets. For all three subcontracts,
the contractor’s rationale for the lack of competition did not fully support the
procurement and did not reflect reasonable requirements for justifying noncompetitive
procurements such as those contained in the FAR Part 6. The InDyne, Inc. subcontracts
administrator’s justification for the noncompetitive procurement indicated that it was in
the Government’s best interest to retain the subcontractor due to its demonstrated
capability in all areas of the statement of work and because the cost charged to NASA
was reasonable.23 However, none of the justifications included the information required
by FAR 6.303-2 such as the market research performed or the unique capability of the
selected vendor as explanations for the repeated noncompetitive awards to this
subcontractor.

AS&M Subcontracts. AS&M staff did not adequately support three noncompetitive
subcontract awards. For example, one noncompetitive subcontract was for modifications
to a B-52 pylon. The justification for the noncompetitive procurement contained limited
detail and stated only that the subcontract was not competed because the previous

23
  The InDyne, Inc. Subcontract Administrator at Glenn prepared a statement of price reasonableness for all
noncompetitive subcontracts we reviewed although corporate policy did not specify that such a statement
was needed.

                                                    6
contractor had used the same subcontractor and that because the B-52 is an old aircraft,
few designers are familiar with the B-52 pylon. The justification was one of three that
did not reflect support required by company policy such as evidence that adequate market
research occurred and that the price obtained was reasonable. In addition, AS&M
management officials did not sign and date the three justifications; signature and dating
are required by company policy.

SecTek, Inc. Subcontracts. Contract files for three of five subcontracts awarded by
SecTek, Inc. did not contain evidence that the contractor solicited a minimum of three
bids as required by company policy. The finance analyst responsible for obtaining quotes
and documenting the contract files told us he had obtained competitive bids but had not
documented the files. Therefore, the contractor did not consider it necessary to prepare a
noncompetitive justification. Consequently, NASA lacks assurance that the contractor
competitively awarded the subcontracts.


Compliance With Company Requirements

NASA CO’s rely on contractors to competitively award subcontracts in accordance with
company policies that reasonably reflect FAR requirements, but NASA’s reliance failed
because the support services contractors did not adequately compete subcontracts or
adequately justify noncompetitive procurements. The contractors did not follow
company policies for obtaining competition and documenting noncompetitive
procurements. In addition, company policies for documenting noncompetitive
procurements were inadequate. Specifically, the three contractors did not (1) follow
company policies for obtaining competition, (2) follow company policies for
documenting noncompetitive procurements, or (3) develop adequate company policy for
documenting the justification for noncompetitive procurements.

Following Company Policies for Competing Subcontracts. InDyne, Inc., SecTek,
Inc., and AS&M procurement staff did not comply with company policies for competing
subcontract awards. Subcontracts awarded by both InDyne, Inc. and SecTek, Inc.
reflected a lack of competition despite policies at both companies requiring that at least
three solicitations be obtained. In addition, AS&M staff did not always compete
subcontract awards although company policy encouraged full and open competition.

Following Company Policies for Documenting Noncompetitive Procurements.
AS&M did not comply with company policy for supporting noncompetitive
procurements. Although AS&M developed procedures for encouraging full and open
competition and supporting noncompetitive procurements in February 2000 that mirrored
FAR Part 6 requirements, documentation justifying three noncompetitive procurements
did not comply with company policies. The contractor did not perform adequate market
research, provide price reasonableness support, or sign and date justifications for the
noncompetitive procurements, although company procedures required such actions. The
contractor’s site manager could not explain why the deficiencies occurred.


                                             7
Developing Company Policies for Documenting Noncompetitive Procurements.
InDyne, Inc. and SecTek, Inc. policies for documenting noncompetitive procurements
were inadequate. Section 11, “ Competitive Acquisitions,” of the InDyne, Inc.
Procurement Manual, dated April 1, 2000, contains guidance for justifying
noncompetitive procurements. The guidance states that the requisitioner should fully
explain and support the reasons for a noncompetitive procurement. This policy is vague
and subject to varying interpretations by staff because requiring a “full explanation” is a
subjective requirement. SecTek, Inc. has no policies in place to justify noncompetitive
procurements. Personnel providing support for noncompetitive procurements need
specific guidance to ensure that consistent and standardized justifications are prepared for
noncompetitive procurements. An example of specific information needed to adequately
justify a noncompetitive procurement could include:

     •   the extent of market research performed,
     •   the circumstances permitting other than full and open competition,
     •   a statement that the anticipated cost will be fair and reasonable,
     •   the actions to be taken to remove barriers to competition for future procurements,
         and
     •   a provision for signatory review/approval from an official above the requisitioner.

NASA CO Analysis of Subcontract Requests. The NASA CO analysis of contractor
requests to award subcontracts for InDyne, Inc. and AS&M subcontract awards was
inadequate. To support the granting of consent, contract files should contain information
showing the consents requested, the CO’s analysis, and the actual consent letter.
However, neither the InDyne, Inc. nor AS&M contract files we reviewed contained
evidence that NASA CO’s analyzed the 13 FAR Part 44 elements required before
granting consent to subcontract. For example, the Indyne, Inc. contract file did not
contain the contractor consent requests or the CO’s analysis of the consent request.24
Although the CO had granted consent as of May 2000 for all purchases under for the
AS&M contract, the contract files contained no evidence of the CO’s analysis of the lack
of competition or the price reasonableness of the noncompetitive procurement. With
respect to SecTek, Inc. subcontract awards, consent to subcontract and the resulting
analysis by the CO were not required because the subcontract awards reviewed were
fixed price and under the simplified acquisition threshold.

NASA’s Increased Risk

Because support services contractors at Ames, Dryden, and Glenn did not fully and
openly compete subcontract awards or adequately justify their noncompetitive
procurements, NASA had reduced assurance that it obtained fair and reasonable prices.
NASA’s risk


24
  The Glenn contract files contained some letters from the CO to InDyne, Inc. granting consent to
subcontract. However, the CO acknowledged consent letters did not exist for all subcontracts for which
consent was required.

                                                    8
relative to the fairness of subcontract prices also increased because CO’s did not
adequately document their reviews of various elements required by the FAR before
granting contractors consent to subcontract.


Recommendations for Corrective Action

1. The Ames Center Director should direct the CO for the Sectek, Inc. contract
(NAS2-98068) to require the contractor to develop adequate policies for
documenting the justifications for noncompetitive procurements.

Management’s Response. Concur. NASA sent the contractor a letter dated September
6, 2002, informing them of the necessity to follow FAR requirements and company
policies in competing subcontracts and purchase orders, and documenting the rationale
for noncompetitive procurements. The complete text of management’s response is in
Appendix F.

Evaluation of Management’s Response. Management’s corrective action is responsive
to the recommendation. Based on our review of the CO’s letter to the contractor which
addressed the need to adequately document the rationale for noncompetitive
procurements, the recommendation is resolved and dispositioned and will be closed.

The Dryden Center Director should direct the CO for the AS&M contract
(NAS4-02021) to:

      2. Require the contractor to follow company policy in competing
subcontracts and in documenting noncompetitive procurements.

Management’s Response. Concur. The CO will issue a letter to the contractor by
October 31, 2002 directing that the contractor follow prescribed company policy (see
Appendix F).

Evaluation of Management’s Response. Management’s corrective action is responsive
to the recommendation. Based on our review of the CO’s September 25, 2002, letter to
the contractor, which addressed the need for competition and adequate documentation for
noncompetitive procurements, the recommendation is resolved and dispositioned and will
be closed.

       3. Document in the contract file the CO’s determination to grant consent to
subcontract, and include in the contract file the consent request, the CO’s analysis,
and the letter granting consent.

Management’s Response. Concur. The Chief of Acquisitions will issue a letter before
October 31, 2002 instructing the CO to document the contract file in accordance with the
recommendation (see Appendix F).


                                           9
Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The Dryden Procurement Officer issued a letter to procurement
staff dated September 25, 2002, that required CO’s to verify that contractors are
following FAR requirements for subcontracts and to document the CO’s consent to
subcontract in the contract file. Based on our review of that letter, the recommendation is
resolved and dispositioned and will be closed.

The Glenn Center Director should direct the CO for the InDyne, Inc. contract
(NAS3-99179) to:

       4. Require the contractor to strengthen company policies for documenting
the justifications for noncompetitive procurements.

Management’s Response. Concur. The CO will require the contractor to strengthen
company policies for documenting the justifications for noncompetitive procurements
before January 31, 2003 (see Appendix F).

Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The recommendation is resolved but will remain undispositioned
and open until agreed-to corrective actions are completed.

       5. Document in the contract file the CO’s determination to grant consent to
subcontract, and include in the contract file the consent request, the CO’s analysis,
and the letter granting consent.

Management’s Response. Concur. The CO agrees to document the determination to
grant consent, and to include in the contract file the consent request, analysis
documentation, and the letter granting consent. The CO will complete these actions by
January 31, 2003 (see Appendix F).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.




                                            10
Finding B. Fixed-Price Contracting

NASA CO’s did not maximize opportunities to facilitate the use of fixed-price
contracting for routine administrative services with reasonably definite requirements.
Specifically, two existing cost-type support services contracts we reviewed contained
routine administrative services that may have been suitable for fixed-price contracting.25
CO’s appropriately justified the use of cost-type contracts for both contracts because of
the circumstances and data available at the time of contract award. The CO’s at Ames
and Glenn did not maximize fixed-price opportunities because they lacked adequate
historical workload data to provide for realistic estimates of the probable cost26 for such
services. In addition, at the time of contract award, the CO’s were concerned about
uncertainties over possible changes in service requirements and about uncertainties
related to converting to a PBC. As a result, NASA assumed more risk than may have
been necessary for routine administrative services because the use of cost rather than
fixed-price contracts can minimize the contractor’s incentive to control costs and perform
effectively. In addition, the costs to administer cost-type contracts can be significant.
For example, NASA award fee contracting guidance provides an example that showed
costs to administer the award fee process over the life of a 5-year contract totaled
$387,000. NASA could experience cost savings by converting cost-type routine
administrative services to fixed-price services in future awards.


Contract Type Guidance

FAR Guidance. FAR Part 16, “Types of Contracts,” provides guidance for selecting a
contract type appropriate to the circumstances of the procurement in question. Part 16
states “a wide selection of contract types is available to the Government and contractors
in order to provide needed flexibility in acquiring the large variety and volume of
supplies and services required by agencies.” FAR Subpart 16.103, “Negotiating contract
type,” states that selecting a contract type is generally a matter of negotiation and
requires sound judgment. FAR 16.103 also states that a firm-fixed-price contract, which
best utilizes the basic profit motive of a business enterprise shall be used when risk
involved is minimal or can be predicted with an acceptable degree of certainty.
However, when a reasonable basis for fixed pricing is lacking, CO’s should consider
other contract types and should direct negotiations to selecting a contract type (or
combination of types), that




25
  The two contracts were Glenn’s contract with InDyne, Inc. and the Ames contract with SecTek, Inc.
26
  The Glenn CO had historical data to prepare a probable cost estimate for the services. However, the
Glenn CO did not have the performance data correlated to the cost data to permit a realistic estimate of the
probable cost of performance. Management decided to include performance standards in the InDyne, Inc.
contract in order to determine the cost of performance.

                                                     11
appropriately ties profit to contractor performance.27 In addition, FAR 16.103 states that
CO’s should avoid protracted use of a cost-reimbursement or time-and-materials
contract28 after experience provides a basis for firmer pricing.29

FAR Subpart 16.2, “Fixed-Price Contracts,” states that a firm-fixed-price contract is
suitable for acquiring supplies or services on the basis of reasonably definite functional
or detailed specifications when the CO can establish fair and reasonable prices at the
outset, such as when available cost or pricing information permits realistic estimates of
the probable costs of performance. FAR 16.2 also states that a firm-fixed-price contract
provides maximum incentive for the contractor to control costs and perform effectively
and imposes a minimum administrative burden upon the contracting parties.

FAR Part 37, “Service Contracting,” requires the use of performance-based contracting
to the maximum extent practicable and establishes the following order of precedence for
selecting service contract types: (1) fixed-price PBC, (2) a PBC that is not fixed-price,
and (3) a contract that is not performance based. FAR Subpart 37.602-5, “Follow-on and
repetitive requirements,” states that when acquiring services that have been provided by
contract, agencies shall rely on the experience gained from the prior contract to
incorporate performance-based contracting methods to the maximum extent practical.
The FAR states this will facilitate the use of fixed-price contracts for such requirements
for services.

OFPP Guidance. The OFPP published a “Guide to Best Practices for Performance-
Based Service Contracting,” in October 1998,30 to assist agencies in developing policies
and procedures for implementing performance-based contracting. Performance-based
contracting emphasizes objective, measurable performance requirements and quality
standards in developing statements of work and determining contract type. The two
support services contracts we reviewed with routine administrative services are PBC.
The “Best Practices” guide states that when acquiring services that were previously
acquired by contract, agencies should rely on knowledge and historical data gained from
the prior contract to incorporate performance-based contracting methods. The OFPP
report on the results of a performance-based contracting 1996 pilot project demonstrated
that converting cost-reimbursement, non-PBC to fixed-price PBC significantly reduced
contract prices. On average, prices for these contracts were reduced by 21 percent.



27
   Glenn management believes that it complied with the intent of FAR 16.103 by developing technical
performance standards and tying the contractor’s technical fee to those performance standards.
28
   A time-and-materials contract provides for acquiring services on the basis of direct labor hours at
specified fixed hourly rates that include wages, overhead, general and administrative expenses, and profit.
Materials are acquired at cost, including, if appropriate, material handling costs as part of materials cost.
29
   Glenn management believed that it needed more experience in PBC before making a decision to move to
a fixed-price contract.
30
   This guide was not available at the time the statement of work was written for the two contracts in
question. Although the InDyne, Inc. contract was not awarded until November 1999, the statement of
work was rewritten early in 1998, and Glenn was enjoined from issuing the request for proposal for some
time as a result of a lawsuit filed by the prior contractor.

                                                     12
Support Services Contracts With Possible Fixed-Price Elements

Two of the support services contracts we reviewed contained cost-type requirements for
routine administrative functions that may be suitable for a fixed-price contract.

     •   Glenn awarded InDyne, Inc.31 a cost-type contract32 in November 1999 for
         logistics, scientific and technical publishing, imaging technology, metrology
         services, library, and administrative and clerical services. The cost-type contract,
         valued initially at about $98 million,33 included routine administrative logistics
         services such as equipment, property, and supply management; and transportation
         services. Such routine administrative services may have been suitable for a fixed-
         price PBC. An excerpt from the “Determination and Findings”34 includes a
         statement by the CO that some logistics tasks were relatively fixed in type and
         quantity. Further, Glenn had more than 8-years experience with similar services
         under a prior support services contract. However, the CO stated that only a few
         months of historical performance data existed.

     •   Ames awarded a cost-type contract35 to SecTek, Inc. in June 1998 for protective
         services that included administrative support services, security force services, and
         technical security services. The cost-type contract, valued initially at about $22
         million, included routine administrative protective services such as
         Visitor/Employee Badging; Protective Services Records Management; and
         Security Education, Awareness, and Training that may have been suitable for a
         fixed-price PBC. The CO originally planned to use a fixed-price type contract but
         decided on a cost-type contract due to various uncertainties.36 The CO stated in
         the June 1997 “Determination and Findings” supporting the use of a cost-type
         award that protective services included routine and nonroutine security activities.
         Ames had about 7-years experience with similar services under two prior
         contracts.



31
   As of the November 1, 1999 award date, the company name was Information Dynamics, Inc.. The
company changed the name to InDyne, Inc. on November 8, 1999.
32
   The cost-type contract included an incentive fee and award fee, and the period of performance is 5 years.
33
   The value of the logistics services, after deducting about $10 million dollars spent for Government
supplies over the 5-year contract is about $5 million dollars.
34
   FAR Subpart 1.7 defines “Determinations and Findings,” as a special form of written approval by an
authorized official that is required as a prerequisite to taking certain contract actions. In this case, and for
the other support services contracts discussed in this report, the Determination and Finding supports the
CO’s decision to use a cost-type award. The determination is a conclusion or decision supported by the
CO’s findings. The findings are statements of fact or rationale essential to support the determination.
35
   The cost-type contract includes a fixed-fee, and the period of performance is 5 years.
36
   The various uncertainties included budget issues and the status of Moffett Federal Airfield. Near the
time of contract award, the Moffett Federal Airfield actively sought commercial and noncommercial
tenants that could have affected the level of protective services. Other possible uncertainties affecting the
level of services included NASA assuming responsibility for Base Housing, the building of a light rail
station at the South Gate where Moffett security would provide the first response to any security-related
calls, and the conversion of Hanger 1 into an Air and Space Museum.

                                                      13
Other NASA Centers Using Fixed-Price Contracts for Similar Services. Other
NASA Centers currently use or plan to use fixed-price contracts for support services
similar to those provided at Glenn and Ames. For example, the Center operations
support services contract at Johnson provides services such as equipment and property
management, supply management, and transportation services that are similar to services
provided in Glenn’s InDyne, Inc. contract. Johnson’s hybrid contract37 for Center
operations support services consists of 11 cost-reimbursable services and 3 services
awarded on a firm-fixed-price basis. The manager of Johnson’s Institutional
Procurement Office stated that the Center initially intended to use a firm-fixed-price
award for its operations support services contract. In September 2000, NASA
Headquarters approved an acquisition strategy for the follow-on Center operations
support services contract that would have resulted in a firm-fixed-price PBC. When
Johnson technical personnel attempted to define requirements, a lack of useful historical
data precluded the use of a fixed-price contract. Therefore, NASA Headquarters
procurement officials and facilities maintenance personnel encouraged Johnson
procurement officials to require the contractor to collect and report workload data for all
cost-type services. Headquarters believed the use of workload data would enable the CO
to develop a realistic estimate of the costs of performance to enable the use of a fixed-
price award for the future follow-on contract.

Three NASA Centers (Goddard Space Flight Center, Glenn, and the John C. Stennis
Space Center) use fixed-price contracts for protective services. Glenn has a fixed-price
security contract with SecTek, Inc.. Ames, however, used a cost-type contract for its
protective services contract with SecTek, Inc. but justified the cost-type contract due to
various major uncertainties.


Lack of Historical Data and Uncertainties Affect Contract Type

Lack of Historical Data. Glenn did not use a use a fixed-price contract for routine
administrative services because of a lack of historical cost of performance data. At the
time of the InDyne, Inc. contract award, the CO cited the lack of historical data as an
obstacle to using fixed pricing. The “Determination and Findings” statement supporting
the use of a cost-type contract reads, in part:

                 The services to be provided under the contract cannot be defined
                 sufficiently to enable negotiation of a reasonable fixed-price for the
                 effort…. Some of the logistics tasks are the only tasks included in
                 the MOC 1[Management Operations Contract] contract that are
                 relatively



37
  As stated in NASA’s June 27, 2001, Award Fee Contracting Guide, situations may exist where portions
of a contract effort, or certain performance aspects are suited to objective measurement, while others are
not. In these situations, CO’s can combine aspects of more than one contract type into a single contract,
creating a hybrid contract. Glenn management is concerned that hybrid contracts increase the risk of
NASA being mischarged.

                                                    14
               fixed in type and quantity; however, sufficient historical workload data
               has not been obtained at the task level to provide a reasonable basis for
               a firm-fixed-price.

The CO noted that only a few months of historical data existed that was related to the
development of data for performance standards. Although a significant amount of data
accumulated over the course of the prior contract, the program office’s lack of useful data
for performance standard development affected the CO’s ability to use a fixed-price
contract. Glenn management has told us that the CO had gathered sufficient historical
data throughout the current InDyne, Inc. contract. Therefore, Glenn management firmly
believed that sufficient historical data will be available to allow for an informed contract
type decision for the follow-on award.

Uncertainties Affect Contract Type. CO’s at Glenn and Ames cited uncertainties at the
time of contract award as reasons for using cost-type contracts. The Glenn CO could not
define services due to budget cuts that occurred during the years preceding the contract
award. According to Glenn program officials, funding of research programs along with
institutional funding has been extremely unpredictable in the last 8 years. In addition,
Glenn management was concerned about converting to a fixed-price contract without
prior PBC experience to determine whether it was possible to move to a fixed-price
contract.

The Ames CO stated in a procurement plan that the year-to-year uncertainties associated
with the budget and the uncertainties of events occurring at Moffett Federal Airfield
created the need to increase or decrease the level of protective services provided. The
CO determined that due to these uncertainties, a cost-type contract was appropriate in
lieu of the fixed-price contract. In addition, the Ames CO stated that the lack of
historical data and uncertainties in writing and defining PBC requirements as well as
uncertainties expressed by contractors in going from a cost-type, non-PBC award to a
fixed-price PBC contributed to the use of a cost-type award. The CO acknowledged that
some protective service functions were routine and that valid fixed-price opportunities
existed.


Effect of More Fixed-Price Contracting

The use of fixed-price contracting for routine administrative services could reduce NASA
contract administration costs. For example, the use of an award fee results in training for
all NASA personnel involved in the award fee process. NASA’s administrative costs
required to execute the award fee process can be significant. An example taken from
NASA’s award fee contracting guidance showed that the cost to implement the award fee
process over the life of a 5-year contract could total $387,000. In addition, the use of
cost-type contracting rather than fixed-price contracting can minimize the contractor’s
incentive to control costs and perform effectively. Both the SecTek, Inc. and InDyne,
Inc.



                                                  15
contracts come up for renewal soon. The SecTek, Inc. contract expires June 30, 2003,
and the InDyne, Inc. contract expires October 31, 2004. NASA has the potential to
reduce costs by converting portions of the cost-type contracts for routine administrative
services to fixed-price contracts.

Recommendations for Corrective Action

6. The Director, Ames Research Center, should direct the CO for the SecTek, Inc.
contract (NAS2-98068) to collect sufficient historical data for routine administrative
services to allow for the use of fixed-price contracting in future awards when the
data and circumstances indicate that fixed-price contracting is appropriate.

Management’s Response. Concur. The CO has collected historical data over the
performance of contract NAS2-98068 for use in determining contract type for the
follow-on contract. Management indicated acquisition planning for the follow-on
contract is underway, however changes on-going at the Center make it impractical to
predict the impact to the contract. The CO is considering contract mechanisms to
accommodate these uncertainties. Management considers the recommendation closed.
The complete text of management’s response is in Appendix F.

Evaluation of Management’s Response. Management’s corrective actions are
responsive to the recommendation. Based on our understanding of the contract and
management’s commitment to consider contract mechanisms to accommodate
uncertainties, the recommendation is resolved and dispositioned and will be closed.

7. The Director, Glenn Research Center, should direct the CO for the InDyne, Inc.
contract (NAS3-99179) to utilize the additional historical data gathered under the
existing contract for routine administrative services to allow for the use of fixed-
price contracting in future awards when the data and circumstances indicate that
fixed-price contracting is appropriate.

Management’s Response. Concur. The CO will review historical performance
standards data gathered under the existing contract for the five logistics areas; property
management, freight traffic, stock purchasing, supply management and transportation
operations; to allow for the possible use of fixed price contracting in future awards.
Management plans to complete this action before January 31, 2003 (see Appendix F).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.




                                             16
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall audit objective was to determine whether NASA properly awarded and
managed its professional, administrative, and management support services contracts.
Specifically, we determined whether:

     •   support services contractors obtained full and open competition for subcontract
         awards, and
     •   NASA selected the appropriate contract type for its support services contracts.


Scope and Methodology

The initial scope for the audit was to select two contracts of significant value for review
that NASA awarded to small and disadvantaged businesses. Based on the results of our
review of the 2 contracts, we expanded our work and selected 3 additional contracts from
a universe of the top 40 support services contractors with contract expiration dates in and
beyond fiscal year 2003. The selection criteria for the three additional contracts included
a combination of factors such as the dollar value and time remaining on the contract
award.

We examined contractor policies and procedures, subcontract awards, related task orders
and delivery orders, statements of work, justifications for noncompetitive procurements,
and file correspondence. We also reviewed a Contractor Purchasing System Review
(CPSR) of InDyne, Inc. done at the Lyndon B. Johnson Space Center by the Defense
Contract Management Agency CPSR team. We also reviewed documentation pertaining
to consent requests, contracting officer (CO) analyses, and actual consents.

We also reviewed documents related to contract type such as procurement plans and
minutes of acquisition strategy meetings and Determination and Findings statements.38
We discussed the rationale for contract-type decisions with NASA CO’s and procurement
officials at several Centers and with program officials such as managers from the Glenn
Research Center (Glenn) Logistics Technical Information Division, and the CO’s
technical representative for the InDyne, Inc. contract.




38
  The Federal Acquisition Regulation definition for the Determination and Findings statement is shown in
footnote 34.

                                                   17
Appendix A

Use of Computer-Processed Data

We used computer-generated data from the NASA Headquarters Financial and
Contractual Status System to generate our universe of support services contracts. We
verified that the selected contracts were properly classified as support services contracts.
We did not perform additional testing of the accuracy and validity of the data, but
nothing came to our attention to cause us to question the validity of the data.

Management Controls Reviewed

We reviewed management controls over the award of subcontracts and the selection of
contract type. We determined that management can improve controls over competition
obtained for support services contractors’ subcontract awards justifications for
noncompetitive procurements and over the CO’s contract-type selection process as
discussed in Finding B.


Audit Field Work

We performed audit field work from November 2001 through June 2002 at Ames
Research Center, Dryden Flight Research Center, Glenn, and the Langley Research
Center. We performed the audit in accordance with generally accepted government
auditing standards.




                                             18
        Appendix B. Summary of Prior Audits and Other Reviews

NASA Office of Inspector General Reviews. The NASA Office of Inspector General
has issued two reports on subcontract management and one report on a contractor’s use
of professional and consultant services. For copies of those reports visit
http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html. Details follow.

“Lockheed Martin Space Operations’ Use of Professional and Consultant Services,”
Report Number IG-02-013, March 26, 2002. NASA can improve its controls over the
contractor’s use of professional and consultant services, and the contractor’s management
controls did not ensure compliance with Federal Acquisition Regulation requirements.
For two of seven professional and consultant service subcontracts reviewed, Lockheed
Martin Space Operations officials had not properly justified noncompetitive
procurements. We recommended that the contracting officers for the two contracts in
question coordinate with the administrative contracting officers to require the contractor
to follow its established procedures by preparing written justifications for future
noncompetitive procurements. Management concurred with our recommendation.

“Allied Signal Subcontract Management,” Report Number IG-99-042,
September 16, 1999, and “Raytheon Subcontract Management,” Report Number
IG-00-002, December 21, 1999. Purchasing department buyers for the two contractors
did not maintain documentation to support justifications for noncompetitive
procurements. The contractors’ purchasing policies did not require contractor personnel
to keep supporting documentation. Additionally, Government oversight reviews of the
contractors’ procurement systems did not include examinations of supporting
documentation for noncompetitive procurements. As a result, NASA had reduced
assurance that contractors maximized competition. In response to our recommendations,
NASA management instructed the contractors to maintain adequate documentation in
support of noncompetitive procurements. NASA management also took actions to
include reviews of supporting documentation in future reviews of the contractors’
purchasing systems.

Department of Defense (DOD) Inspector General Reviews. The DOD Office of
Inspector General issued the following report on professional, administrative, and
management support services contracts.

“Contracts for Professional, Administrative, and Management Support Services,”
Report Number D-2000-100, March 10, 2000. This report discusses a review of
procurement procedures for support services contracts at 15 DOD contracting activities
and program offices. The report identified problems in each of 105 contract actions.
Problems included inadequate technical reviews, inadequate competition, and lack of cost
control. In addition, contracting officials did not use available history from prior
contracts to help define costs and reduce risks by awarding firm-fixed-price contracts.
The DOD Office of Inspector General recommended that the Deputy Under Secretary of



                                            19
Appendix B

Defense (Acquisition Reform) develop training on planning and defining requirements
for contracts for support services; train contracting and program personnel in the award
and administration of contracts for these services; and emphasize, in the training, the
need to avoid the kinds of deficiencies noted in the report.




                                            20
                        Appendix C. Contracts Reviewed

The five contracts we reviewed, their dollar value as of March 31, 2002, and an
explanation of the provided services follow:

Contractor                                       Contract Number Contract Value

Swales and Associates, Inc.                        NAS1-00135           $240,000,000

SecTek, Inc.                                       NAS2-98068             22,333,633

Northrop Grumman Information Technology,
Inc.-Technical Services –                          NAS2-98084             90,382,058

InDyne, Inc.                                       NAS3-99179            100,852,756

Analytical Services and Materials, Inc. (AS&M) NAS4-50066                 45,750,000
                                                  Total                 $499,318,447


Explanation of Contractor Services

Swales and Associates, Inc. performs research and development and provides
engineering support services to Langley Research Center under a 5-year indefinite
delivery-indefinite quantity contract, with a maximum value of $240 million.

SecTek, Inc. provides protective services to Ames Research Center (Ames) and the
Moffett Federal Airfield.

Northrop Grumman Information Technology, Inc.-Technical Services (formerly
Logicon, Inc.), provides operations, development, maintenance, and modification of the
Simulation Laboratory Facilities to Ames.

InDyne, Inc. provides logistics services, scientific and technical publishing, imaging
technology, metrology services, library, and administrative and clerical services to the
Glenn Research Center.

AS&M provides engineering and technical services in support of Dryden Flight Research
Center projects and functions.




                                            21
                   Appendix D. Subcontract Consent Checklist

In accordance with Federal Acquisition Regulation (FAR) Subpart 44.202-2,
“Considerations,” paragraph (a), the contracting officer responsible for consent to
subcontract must, at a minimum, review the request and supporting data and consider the
following:

       (1) Is the decision to subcontract consistent with the contractor’s make-or-buy program,
       if any (see 15.407-2)?
       (2) Is the subcontract for special test equipment or facilities that are available from
       Government sources (see Subpart 45.3) ?
       (3) Is the selection of the particular supplies, equipment, or services technically justified?
       (4) Has the contractor complied with the prime contract requirements regarding-
       (i) Small business subcontracting, including, if applicable, its plan for subcontracting
       with small, veteran owned, service-disabled veteran-owned, HUBZone, small
       disadvantaged and woman-owned small business concerns (see Part 19); and
       (ii) Purchase from nonprofit agencies designated by the Committee for Purchase From
       People Who Are Blind or Severely Disabled (Javits-Wagner-O’Day Act (JWOD)
       (41U.S.C.48)) (see Part 8)
       (5) Was adequate price competition obtained or its absence properly justified?
       (6) Did the contractor adequately assess and dispose of subcontractors’ alternate
       proposals, if offered?
       (7) Does the contractor have a sound basis for selecting and determining the
       responsibility of the particular subcontractor?
       (8) Has the contractor performed adequate cost or price analysis or price comparisons
       and obtained accurate, complete, and current cost or pricing data, including any required
       certifications?
       (9) Is the proposed subcontract type appropriate for the risks involved and consistent
       with current policy?
       (10) Has adequate consideration been obtained for any proposed subcontract that will
       involve the use of Government-furnished facilities?
       (11) Has the contractor adequately and reasonably translated prime contract technical
       requirements into subcontract requirements?
       (12) Does the prime contractor comply with applicable cost accounting standards for
       awarding the subcontract?
       (13) Is the proposed subcontractor on the List of Parties Excluded from Federal
       Procurement and Nonprocurement Programs (see Subpart 9.4)?

FAR 44.202-2, paragraph (b) states that “particularly careful and thorough consideration
under paragraph (a) of the section is necessary when:”

   •   the prime contractor’s purchasing system or performance is inadequate, and
   •   subcontracts are proposed for award on a noncompetitive basis.




                                                    22
                      Appendix E. Noncompetitive Subcontracts

We reviewed the following noncompetitive subcontracts that were not adequately
justified by the contractors. Their accompanying values, by Center and contractor, are
also shown:

Glenn Research Center InDyne, Inc. Subcontracts

INC-06240         FM: Solutions       $ 86,375
INC-07443         FM: Solutions        111,485
INC-08890         FM: Solutions      $123,635
                        FM: Solutions Subtotal                $321,495

INC-06225         Harcar and Assoc.   $54,604
INC-07445         Harcar and Assoc.     71,154
INC-00888         Harcar and Assoc.     27,000
                                Harcar Subtotal               $152,758

INC-08758         History Enterprises*              $385,833
                                InDyne, Inc. SubTotal                             $ 860,086


Dryden Flight Research Center Analytical Services and Materials (AS&M), Inc.
Subcontracts

P9157544LK                 John T. McCarthy                   $ 59,107
P9230RS2KH                 Eagle Aeronautics                    52,808
Various Orders             Modulus Engineering                 257,921
                                  AS&M SubTotal                                   $ 369,836

Ames Research Center SecTek, Inc. Subcontracts

Ames 0902                 Draeger Safety, Inc.       $ 9,722
Ames 0807                 Alpha Controls               11,640
Ames 1003                 Johnson Controls              6,360
                                 SecTek, Inc. SubTotal                             $ 27,722

                                                                Total           $1,257,644

*
 Information presented to the auditors after issuance of our discussion draft report indicated that support
for this noncompetitive procurement existed. However, InDyne’s Subcontract Administrator at Glenn
Research Center did not develop and document this information before processing the subcontract award
and, therefore, did not adequately justify the noncompetitive acquisition in the official subcontract file.




                                                     23
Appendix F. Management’s Response




               24
     Appendix F




25
Appendix F




             26
                      Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

HQ/A/Administrator
HQ/AI/Associate Deputy Administrator
HQ/B/Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/HK/Director Contract Management Division
HQ/HS/Director, Program Operations Division
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/M/Associate Administrator for Space Flight


NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
JSC/AA/Director, Lyndon B. Johnson Space Center
LaRC/106/Acting Director, Langley Research Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space




                                         27
Appendix G

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         28
                    NASA Assistant Inspector General for Audits
                                 Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: NASA Contracts for Professional, Administrative, and Management
              Support Services

Report Number: IG-02-0XX                               Report Date: September XX, 2002


                  Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                      Agree      Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically       5         4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Lorne Dear, Program Director, Procurement Audits

Patrick A. Iler, Program Manager, Procurement Audits

Michael Bruns, Auditor-in-Charge

Stephen K. Siu, Auditor

Nancy C. Cipolla, Report Process Manager

Debra A. Schuerger, Program Assistant
